1

CERTIFICATE OF SERVICE
\

No.
Blanche Brown
Petitioner
V
United States
Respondent

The undersigned hereby certifies that on

1st day of March, 2021 a copy of the Petion for

Write of Certiorari has been served via United Postal Service Mail on the individuals listed below
as addressed.
US Solicitor General

BQtnchDated: March 1,2021

Blanche Brown,
Petitioner/Plaintiff

Case NO: 2018-03367-M] Respondent Motion for Judgment pursuant to 42 PA §§1034 ;10352

Page 1 of 1

